1a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
——————————
SARAH R. LEE, on behalf of herself
and all others similarly situated,
Plaintiff-Appellant,
V.

>

No. 19-3250

OHIO EDUCATION ASSOCIATION;
AVON LAKE EDUCATION
ASSOCIATION; NATIONAL
EDUCATION ASSOCIATION,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
No. 1:18-cv-01420 — John R. Adams, District Judge.
Argued: December 6, 2019
Decided and Filed: February 24, 2020
Before: DAUGHTREY, CLAY, and GRIFFIN, Circuit
Judges.
——————————

2a
COUNSEL
ARGUED: Jonathan F. Mitchell, MITCHELL LAW,
PLLC, Austin, Texas, for Appellant. Leon Dayan,
BREDHOFF & KAISER, P.L.L.C., Washington, D.C.,
for Appellees. ON BRIEF: Jonathan F. Mitchell,
MITCHELL LAW, PLLC, Austin, Texas, for Appellant.
Leon Dayan, John M. West, Jacob Karabell,
BREDHOFF & KAISER, P.L.L.C., Washington, D.C.,
Eben
O.
McNair,
IV,
Timothy
Gallagher,
SCHWARZWALD MCNAIR & FUSCO, LLP, Cleveland, Ohio, Jason Walta, NATIONAL EDUCATION
ASSOCIATION, Washington, D.C., for Appellees. William L. Messenger, NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC., Springfield, Virginia, for Amicus Curiae.
——————————
OPINION
——————————
GRIFFIN, Circuit Judge.
Plaintiff-Appellant Sarah Lee seeks a refund of “fairshare” fees she was required to pay to her public-sector
union. Shortly after Lee filed suit, the Supreme Court
held that such fees violate the First Amendment as a
form of compelled speech. Janus v. AFSCME, Council
31, 138 S. Ct. 2448, 2459–60 (2018). Nevertheless, the district court granted the union’s motion to dismiss, ruling
that the union, as a private actor sued under 42 U.S.C.

3a
§ 1983, was entitled to rely on its good faith in following
existing Ohio law and prior Supreme Court precedent,
which had expressly permitted fair-share fees.
We now affirm the district court’s dismissal of plaintiff’s federal cause of action because the union’s goodfaith defense bars the claim. We also affirm the district
court’s dismissal of plaintiff’s state-law conversion claim
because she failed to state a plausible claim for relief.
I.
A.
Plaintiff Sarah Lee is a public-school teacher in the
Avon Lake School District. When Lee was hired by the
school district, she was required to either join defendant
Avon Lake Education Association1 as a union member or
pay fair-share fees as a non-member. This was so because the collective bargaining agreement between the
school district and the Union included a fair-share
clause, which was consistent with Ohio law and the Supreme Court’s pronouncement endorsing fair-share fees
in Abood v. Detroit Board of Education, 431 U.S. 209
(1977). Lee elected to pay fair-share fees rather than join
the Union.
Anticipating that the Supreme Court would overrule
Abood, Lee filed this putative class-action suit on June
25, 2018, asserting that the Union and various state ac1.

The Avon Lake Education Association is affiliated at the state
level with the Ohio Education Association and at the national
level with the National Education Association, the other appellees. For ease of reading, we refer to these entities collectively
as the “Union.”

4a
tors had violated her constitutional rights by imposing
compulsory fair-share fees as a condition of employment.
Plaintiff raised claims under 42 U.S.C. § 1983, the Declaratory Judgment Act, 28 U.S.C. § 2201, and various
state-law torts, including conversion. She sought a declaration that various provisions of Ohio law (which implemented fair-share fees) were unconstitutional, injunctive
relief to prevent further transfer of her wages by the
School District to the Union, and damages from the Union for the fair-share fees which she had already paid.
B.
Two days after Lee filed suit, the Supreme Court issued its decision in Janus. 138 S. Ct. 2448. The Court explained that fair-share fees resulted in non-members being “forced to subsidize a union, even if they choose not
to join and strongly object to the positions the union
takes in collective bargaining and related activities.” Id.
at 2459–60. The Janus court held that this practice violated the free speech rights of non-members “by compelling them to subsidize private speech on matters of substantial public concern.” Id. at 2460. Therefore, the Janus court overruled its prior precedent, Abood, explaining that Abood’s endorsement of fair-share fees had been
a “windfall” to public-sector unions. Id. at 2486. The
Court in Janus said that “States and public-sector unions may no longer extract agency fees from nonconsenting employees.” Id. (emphasis added). Accordingly,
the Supreme Court reversed the judgment of the lower
court and remanded for further proceedings consistent
with its opinion. Id.

5a
With Janus in hand, Lee voluntarily dismissed her
claims against the state officials and did not oppose dismissal of the school district, leaving only her claims
against the Union. Then, the Union moved to dismiss
under Federal Rule of Civil Procedure 12(b)(1) and
12(b)(6), on the grounds that plaintiff’s claims for injunctive and declaratory relief were moot, and that its affirmative defense of good-faith barred plaintiff’s claims
for money damages because it had followed Ohio law and
Supreme Court precedent in collecting agency fees. The
district court agreed and granted the motion to dismiss.
Plaintiff timely appealed, contesting only the district
court’s dismissal of her § 1983 claim and state-law conversion claim.
II.
We first address the district court’s dismissal of
plaintiff’s § 1983 claim, which we review de novo. In re
NM Holdings Co., 622 F.3d 613, 618 (6th Cir. 2010).
A.
As a preliminary matter, we must consider whether
the Supreme Court’s decision in Janus is retroactive. If
it is not, then Lee’s claim fails as a matter of law. See Janus v. AFSCME, Council 31, 942 F.3d 352, 359–60 (7th
Cir. 2019) [hereinafter Janus Remand].
Certain language in the Supreme Court’s opinion at
least suggests that Janus was intended to be applied
purely prospectively, rather than retroactively. For instance, the Court noted that public-sector unions had received a “considerable windfall” through their collection

6a
of fair-share fees during the Abood era. 138 S. Ct. at
2485–86. It continued, “[i]t is hard to estimate how many
billions of dollars have been taken from nonmembers and
transferred to public-sector unions in violation of the
First Amendment. Those unconstitutional exactions
cannot be allowed to continue indefinitely.” Id. at 2486
(emphasis added). And ultimately, the Court concluded
that “States and public-sector unions may no longer extract agency fees from nonconsenting employees.” Id.
(emphasis added). These forward-looking statements
could be construed to support a purely prospective approach to the constitutional right announced in Janus.
But on the other hand, the Supreme Court has made
clear that its default approach is full retroactivity. See
Agostini v. Felton, 521 U.S. 203, 237 (1997) (“Our general practice is to apply the rule of law we announce in a
case to the parties before us. We adhere to this practice
even when we overrule a case.” (citation omitted)). We
thus agree with our sister circuits that “[r]ather than
wrestle the retroactivity question to the ground,” the
most prudent course of action is to assume without deciding that the right recognized in Janus has retroactive
application. Janus Remand, 942 F.3d at 360; see also
Danielson v. Inslee, 945 F.3d 1096, 1099 (9th Cir. 2019)
(“[W]e will assume that the right delineated in Janus
applies retroactively and proceed to a review of available
remedies.”). We thus proceed to an evaluation of the
remedies available to plaintiff.
B.
Even assuming the retroactivity of Janus, Lee’s
claim presents an “instance[ ] where [the] new rule, for

7a
well-established legal reasons, does not determine the
outcome of the case.” Reynoldsville Casket Co. v. Hyde,
514 U.S. 749, 758–59 (1995). Here, the good-faith defense
constitutes “a previously existing, independent legal basis . . . for denying” a retroactive remedy. Id. at 759.
The good-faith defense has its origins in Lugar v.
Edmonson Oil Company, 457 U.S. 922 (1982), where the
Supreme Court altered the test for private-party liability
for claims brought under § 1983, concluding that such
claims were viable so long as (1) the claimed deprivation
of constitutional rights “resulted from the exercise of a
right or privilege having its source in state authority”
and (2) the private-actor defendant could be “appropriately characterized as a ‘state actor[ ].’” Id. at 939. In a
footnote, the Court acknowledged that its holding could
cause a private individual to be held responsible for following a state law subsequently declared unconstitutional. Id. at 942 n.23. The Court wrote that the “problem
should be dealt with . . . by establishing an affirmative
defense.” Id.
Our court took notice of Lugar in Duncan v. Peck,
752 F.2d 1135, 1141–42 (6th Cir. 1985), although the case
was decided on other grounds. Then, seven years later,
the Supreme Court considered whether private actors
sued under § 1983 could assert qualified immunity like
their governmental counterparts. Wyatt v. Cole, 504 U.S.
158, 159 (1992). At the time, three of our sister circuits
had extended qualified immunity to private actors, two
had declined to do so, and only our court had recognized
a good-faith defense for private actors following state
law, as the Lugar court had suggested. Id. at 161 (collecting cases).

8a
Ultimately, the Wyatt Court held that private parties
were not entitled to qualified immunity. Id. at 164–67. It
reasoned that qualified immunity was designed to
“strike[ ] a balance between compensating those who
have been injured by official conduct and protecting government’s ability to perform its traditional functions.”
Id. at 167. Therefore, government actors needed qualified immunity to “preserve their ability to serve the public good.” Id. But the Wyatt court found the rationales
for Harlow-style qualified immunity inapplicable to private parties:
Although principles of equality and fairness
may suggest . . . that private citizens who rely
unsuspectingly on state laws they did not create and may have no reason to believe are invalid should have some protection from liability,
as do their government counterparts, such interests are not sufficiently similar to the traditional purposes of qualified immunity to justify
such an expansion.
Id. at 168. Therefore, given that the question presented
was limited to the applicability of qualified immunity, the
Court declared that it could offer “no relief” to the private party defendants. Id. However, the Court again
noted — as it had in Lugar — that it was leaving open
whether private parties were “entitled to an affirmative
defense based on good faith and/or probable cause.” Id.
at 169. On remand, the Fifth Circuit held that private
persons who act under color of law may assert a good
faith defense to § 1983 claims, and the Supreme Court
denied certiorari. Wyatt v. Cole, 994 F.2d 1113, 1120 (5th
Cir.), cert. denied, 510 U.S. 977 (1993).

9a
Since Wyatt, a consensus has emerged among the
lower courts that “while a private party acting under color of state law does not enjoy qualified immunity from
suit, it is entitled to raise a good-faith defense to liability
under section 1983.” Janus Remand, 942 at 363; see also
id. (collecting cases). It is not surprising then that the
Seventh Circuit, the Ninth Circuit, and each of the district courts to have considered the precise issue before
us have all concluded that the good-faith defense precludes claims brought under § 1983 for a return of fairshare fees collected under the Abood regime. See Danielson, 945 F.3d at 1097–98; id. at 1104 n.7 (collecting
cases).
We now add our voice to that chorus. The Union was
authorized by Ohio law and binding Supreme Court
precedent to collect agency fees. “Until [Janus] said otherwise, [the Union] had a legal right to receive and spend
fair-share fees collected from nonmembers as long as it
complied with state law and the Abood line of cases. It
did not demonstrate bad faith when it followed these
rules.” Janus Remand, 942 F.3d at 366. Accordingly, we
hold that the district court properly granted the motion
to dismiss plaintiff’s § 1983 claim because the Union’s
reliance on existing authority satisfied the good-faith defense as a matter of law.
C.
Lee does not directly challenge the existence of the
good-faith defense but marshals several arguments for
why her claim should fall outside its scope. We do not
find them persuasive.

10a
She first styles her claim as one for “equitable restitution,” akin to the refund of an unconstitutional tax or
criminal fine, which she says must be returned even if
collected in good faith. But “[t]he label which a plaintiff
applies to [her] pleading does not determine the nature
of the cause of action.” Mead Corp. v. ABB Power Generation, Inc., 319 F.3d 790, 795 (6th Cir. 2003) (quoting
United States v. Louisville & Nashville RR Co., 221
F.2d 698, 701 (6th Cir. 1955)). Instead, we must look beyond the labels to “the substance of the allegations.”
Minger v. Green, 239 F.3d 793, 799 (6th Cir. 2001).
The crux of Lee’s complaint is that the Union violated
her First Amendment rights by collecting mandatory
agency fees because the fees resulted in her compelled
subsidization of union speech with which she disagreed.
See Janus, 138 S. Ct. at 2460. Thus, an award of damages
would compensate plaintiff for the dignitary harm she
suffered from being forced to subsidize the Union’s
speech, not to recoup fees which had been wrongfully
taken — suggesting that her claim is legal in nature. See
Mooney v. Ill. Educ. Ass’n, 942 F.3d 368, 370 (7th Cir.
2019); Danielson, 945 F.3d at 1102 (“Plaintiffs’ constitutionally cognizable injury is the intangible dignitary
harm suffered from being compelled to subsidize speech
they did not endorse. It is not the diminution in their assets from the payment of compulsory agency fees.”).
Moreover, the Supreme Court has instructed that
“restitution in equity typically involves enforcement of a
constructive trust or an equitable lien, where money or
property identified as belonging in good conscience to
the plaintiff could clearly be traced to particular funds or
property in the defendant’s possession.” Montanile v.
Bd. of Trs. of Nat’l Elevator Indus. Health Benefit Plan,

11a
136 S. Ct. 651, 657 (2016) (citation and internal quotation
marks omitted). Where the original funds are no longer
identifiable, the claim “is a legal remedy, not an equitable one.” Id. at 658 (emphasis omitted). The fees Lee
seeks clearly fall in the latter category; “it is not the case
that the agency fees remain in a vault, to be returned
like a seized automobile.” Babb v. Cal. Teachers Ass’n,
378 F. Supp. 3d 857, 876 (C.D. Cal. 2019). Therefore, we
view plaintiff’s claim as arising in law and need not determine whether the good-faith defense applies to equitable claims.
Next, Lee argues that under Wyatt, the good-faith
defense only applies if the most analogous tort to her
claim was subject to a good faith defense at common-law.
But in Wyatt, the Supreme Court discussed immunity
and explained that it would evaluate whether Congress
intended to confer immunity by “determining whether
there was an immunity at common law . . . [for] the most
closely analogous torts.” Wyatt, 504 U.S. at 164. The
Wyatt court “never said that the same methodology
should be used for the good-faith defense.” Janus Remand, 942 F.3d at 365; see also Danielson, 945 F.3d at
1100–01.2
Finally, plaintiff makes a last-ditch effort to salvage
her federal claim, asserting that it was the union’s burden to demonstrate its compliance with Abood to justify
2.

Even if we adopted the common-law-analogue rule, we agree
with our sister circuits that abuse of process is the most analogous tort. Janus Remand, 942 F.3d at 365; Danielson, 945 F.3d
at 1102. And because abuse of process was subject to a goodfaith defense at common law, plaintiff’s argument fails. See Wyatt, 504 U.S. at 16465; id. at 172 (Kennedy, J., concurring); id. at
176 (Rehnquist, C.J., dissenting).

12a
the good-faith defense, so the district court erred in
granting the Union’s motion to dismiss prior to discovery. We disagree. The good-faith defense simply requires that the allegedly unlawful conduct — the taking
of agency fees — be done in good faith. There is no dispute that the Union was entitled to rely on existing Ohio
law and the Supreme Court’s decision in Abood to collect
agency fees at the time the fees were deducted from
plaintiff’s wages. As succinctly put by the district court
in Mooney, “[i]f Defendants improperly spent the fairshare fees, Plaintiff would have an independent Abood
claim but it would not render the exaction of the fee an
act in bad faith. Plaintiff cannot embed an Abood claim in
a Janus claim and thereby shift the burdens of pleading,
proof, and persuasion.” Mooney v. Ill. Educ. Ass’n, 372
F. Supp. 3d 690, 706 (C.D. Ill. 2019); see also Danielson,
945 F.3d at 1105 (“Because Plaintiffs’ claims arise from
the Union’s reliance on Abood, not allegations that the
Union flouted that authority, the Union need not show
compliance with Abood’s strictures to assert successfully
a good faith defense.”). We thus reject plaintiff’s contention that the Union was required to establish compliance
with Abood to invoke the good-faith defense to her claim
under Janus.
In sum, the district court correctly concluded that
plaintiff’s First Amendment claim under § 1983 was
barred by the good-faith defense because the Union was
entitled to rely on existing Ohio law and longstanding
Supreme Court precedent to collect agency fees.

13a
III.
Lee also pleaded several state-law claims, including a
tort claim for conversion, which the district court did not
address before dismissing the action. Lee presents the
following question for review: “Has the plaintiff stated a
claim on which relief may be granted under the state-law
tort of conversion?” For several reasons, we conclude
that she has not.
We begin with Lee’s complaint, where all seven of
her state-law causes of action are contained within a single sentence: “Ms. Lee is also suing . . . under the statelaw torts of conversion, trespass to chattels, trover, replevin, detinue, unjust enrichment, restitution, and any
other state-law cause of action that offers relief.” This
practice violated the Federal Rules of Civil Procedure in
two ways. First, plaintiff failed to “connect specific facts
or events with the various causes of action she asserted.”
Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d 939, 947 (7th
Cir. 2013). This violated Rule 8(a)(2)’s requirement that
she provide the defendants “adequate notice of the
claims against them and the grounds upon which each
claim rests.” Vibe Micro, Inc. v. Shabanets, 878 F.3d
1291, 1295 (11th Cir. 2018) (quoting Weiland v. Palm
Beach Cty. Sheriff’s Office, 792 F.3d 1313, 1323 (11th Cir.
2015)). She also failed to separate each of her causes of
action or claims for relief into separate counts. This type
of “shotgun pleading” violates Rule 10(b). See Weiland,
792 F.3d at 1323 n.13 (collecting cases); Cincinnati Life
Ins. Co., 722 F.3d at 947 (holding that one count of complaint, which raised five causes of action, was impermissible “kitchen sink” pleading).

14a
But even ignoring these deficiencies, plaintiff’s conversion theory fails as a matter of Ohio law as well.
“[T]he elements of a conversion cause of action are (1)
plaintiff’s ownership or right to possession of the property at the time of the conversion; (2) defendant’s conversion by a wrongful act or disposition of plaintiff’s property rights; and (3) damages.” Dice v. White Family Cos.,
878 N.E.2d 1105, 1109 (Ohio Ct. App. 2007) (citation
omitted). Plaintiff’s claim fails because fair-share fees
were permissible under then-existing state and federal
law, and plaintiff was contractually obligated to pay them
pursuant to the collective bargaining agreement — just
as the Union was obligated to collect them. In other
words, it was a condition of Lee’s employment that she
pay fair-share fees. She therefore had no right to ownership or possession of them at the time they were taken.
Accordingly, we affirm the district court’s dismissal
of plaintiff’s state-law conversion claim. See Hensley
Mfg. v. ProPride Inc., 579 F.3d 603, 609 (6th Cir. 2009)
(“We may affirm the district court’s dismissal of a plaintiff’s claims on any grounds, including grounds not relied
upon by the district court.”).
IV.
For the reasons explained herein, we affirm the
judgment of the district court.

15a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Sarah R. Lee,
Plaintiff,

Ohio Education Association,
et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. 1:18CV1420
JUDGE JOHN ADAMS

MEMORANDUM OF
OPINION AND
ORDER
(Resolves Doc. 35, 36,
37, and 48)

Pending before the Court are motions to dismiss filed
by 1) Defendants Craig Zimpher, Aaron Schmidt, and
Richard Lumpe (Doc. 35); 2) Avon Lake City School District (Doc. 36); and 3) Avon Lake Education Association,
National Education Association, and Ohio Education Association (collectively, “NEA”) (Doc. 37). Additionally,
Plaintiff Sarah Lee has sought leave to amend her complaint. Doc. 48. The motion is GRANTED, and the Court
will consider the motions to dismiss in light of the
amended complaint. Plaintiff Sarah Lee has not opposed
the dismissal of Zimpher, Schmidt, Lumpe, and the Avon
Lake City School District. Those motions (Docs. 35, 36),
therefore, are GRANTED. Accordingly, the Court now
addresses the sole remaining motion, NEA’s motion to
dismiss.

16a
Through this opinion, the Court joins an evergrowing number of courts that have found that causes of
action seeking to enjoin collection of fair-share fees and
recoup damages based on prior collection of those fees
must be dismissed in light of Janus v. American Federation of State, County, & Municipal Employees, Council
31, 138 S. Ct. 2448 (2018). One colleague has succinctly
noted:
Janus v. American Federation of State, County, & Municipal Employees, Council 31, 138 S.
Ct. 2448 (2018) does not entitle Hough to a refund of the fair-share fees he paid before the
ruling came down. Assuming it’s necessary to
inquire whether the defendant’s good-faith reliance on then-existing law bars Hough’s refund claim under 42 U.S.C. § 1983, the defendants have indeed established good-faith reliance as a matter of law. This is so for the reasons provided in the following cases: Janus v.
American Federation of State, County, & Municipal Employees, Council 31, No. 15 C 1235,
2019 WL 1239780, at *3 (N.D. Ill. Mar. 18,
2019); Carey v. Inslee, No. 3:18-CV-05208RBL, 2019 WL 1115259, at *9 (W.D. Wash.
Mar. 11, 2019); Cook v. Brown, No. 6:18-CV01085-AA, 2019 WL 982384, at *7 (D. Or. Feb.
28, 2019); Danielson v. American Federation
of State, County, & Municipal Employees,
Council 28, 340 F. Supp. 3d 1083, 1087 (W.D.
Wash. 2018).
Hough v. SEIU LOCAL 521, No. 18-CV-04902-VC, 2019
WL 1274528, at *1 (N.D. Cal. Mar. 20, 2019); see also
Crockett v. NEA-Alaska, 2019 WL 1212082 (D. Alaska

17a
Mar. 14, 2019) (finding no state law mechanism to allow
for the recovery of past-paid fees). The Court agrees
with the rationale of these decisions and incorporates it
herein. Accordingly, NEA may present a good faith defense and the request for injunctive relief is moot.
Lee seeks to avoid the same result as the cases above
by asserting error in these recent decisions. First, Lee
claims that her request for injunctive relief is not moot
based upon the voluntary cessation of the conduct by
NEA. However, as another colleague noted,
Nevertheless, Mr. Lembo — and all the Defendants — complied with Janus. They did so
not because they wanted to evade the Court’s
jurisdiction, as is the case in so many voluntary
cessation cases, but because the Supreme
Court’s new and controlling precedent not only
affected the rights of the parties immediately
before it (the state of Illinois) but also announced a broad rule invalidating every state
law permitting agency fees to be withheld. In
unequivocal terms, the Supreme Court stated
that: “States and public-sector unions may no
longer extract agency fees from nonconsenting
employees.” Janus, 138 S. Ct. at 2486, slip op.
at 48.
Lamberty v. Connecticut State Police Union, No. 3:15CV-378 (VAB), 2018 WL 5115559, at *9 (D. Conn. Oct.
19, 2018). This same rationale undermines Lee’s reliance
on district court decisions that were decided following
Obergefell v. Hodges, 135 S. Ct. 2584 (2015). Lee asserts
that courts routinely declined to moot cases despite the
decision in Obergefell. In support, Lee provided:

18a
See, e.g., See Jernigan v. Crane, 796 F.3d 976,
979 (8th Cir. 2015) (refusing to hold that a constitutional challenge to Arkansas’s marriage
laws had become moot after Obergefell v.
Hodges, 135 S. Ct. 2584 (2015), because Obergefell had “invalidated laws in Michigan, Kentucky, Ohio, and Tennessee — not Arkansas.”);
Rosenbrahn v. Daugaard,799 F.3d 918, 922
(8th Cir. 2015) (“South Dakota’s assurances of
compliance with Obergefell do not moot the
case.”); Waters v. Ricketts, 798 F.3d 682, 686
(8th Cir. 2015) (“Nebraska’s assurances of
compliance with Obergefell do not moot the
case.”); Waters v. Ricketts, 159 F. Supp. 3d 992,
999–1000 (D. Neb. 2016) (refusing to find the
plaintiffs’ constitutional challenge to Nebraska’s laws moot because “no Court has yet declared Section 29 unconstitutional. . . . It has
not been repealed and is still published as part
of the Nebraska Constitution. . . . The Obergefell case struck down the marriage exclusions
in Michigan, Kentucky, Ohio, and Tennessee.
While precedent does in fact dictate the result
in the case before this Court, Section 29 has
not specifically been declared unconstitutional.”); Strawser v. Strange, 190 F. Supp. 3d
1078, 1081 (S.D. Ala. 2016) (“[A] government
ordinarily cannot establish mootness just by
promising to sin no more.” (citation and internal quotation marks omitted)).
Doc. 41 at 10. As detailed above, cases survived postObergefell because courts concluded that specific, state
statutes had not been the subject of the decision by the

19a
Court in Obergefell. The same cannot be said here. Janus, as detailed above, used broad language that immediately made it unconstitutional for unions to extract
agency fees from nonconsenting employees. There is no
dispute that NEA immediately ceased collecting such
fees. Accordingly, any request for injunctive relief is
MOOT.
In a similar fashion, Lee amended her complaint in
the hope of creating a factual issue surrounding NEA’s
good faith defense. Lee contends that this Court cannot
dismiss the matter because NEA must demonstrate factually that it complied with prior Supreme Court precedent and that its decisionmakers subjectively believed
that the precedent was correct. The Court finds no merit
in such a contention.
First, Lee’s assertion regarding the subjective belief
of members of NEA cannot withstand scrutiny. The entity acts solely through its actions. Those actions included
collecting fees under expressly permitted such actions.
Even if an employee strongly believed that Abood was
wrongly decided, it would not make reliance on that decision any less good-faith reliance. Rather, regardless of
personal opinions, individuals are entitled to rely upon
binding United States Supreme Court precedent.
Second, it is unclear what facts Lee believes need to
be proven to establish compliance with Abood and its
progeny. It appears that Lee is suggesting that if NEA
was routinely violating Abood and its progeny, such a
finding would undermine any good faith defense. However, even in the now-amended complaint, Lee has not
even hinted at any such violation. Moreover, given the
current litigation, it is difficult to conceive of a circumstance where the NEA would have disregarded Abood in

20a
such a blatant manner as to destroy a good faith defense
and yet still avoided litigation. As such, the Court declines to open discovery into the matter. The facts are
undisputed that NEA collected fees under the binding
precedent of Abood and the subsequent state statutes it
spawned. As a matter of law, therefore, those collections
efforts were done in good faith that they did not violate
the United States Constitution.
Based upon the above, the complaint is hereby
DISMISSED.
IT IS SO ORDERED.
March 25, 2019

/s/ John R. Adams
JUDGE JOHN R. ADAMS
UNITED STATES
DISTRICT JUDGE

21a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Apr 29, 2020
SARAH R. LEE, ON BEHALF OF
HERSELF AND ALL OTHERS
SIMILARLY SITUATED,
Plaintiff-Appellant,

OHIO EDUCATION ASSOCIATION;
AVON LAKE EDUCATION
ASSOCIATION; NATIONAL
EDUCATION ASSOCIATION,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: DAUGHTREY, CLAY, and GRIFFIN,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission and
decision of the case. The petition then was circulated to

22a
the full court.* No judge has requested a vote on the
suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

*

Judge Murphy recused himself from participation in this ruling.

